September 2008
Report No. AUD-08-016


Controls Over Contractor Payments for
Relocation Services




            AUDIT REPORT
                                                  Report No. AUD-08-016                                                September 2008

                                                  Controls Over Contractor Payments for
                                                  Relocation Services
   Federal Deposit Insurance Corporation
                                                  Audit Results
Why We Did The Audit
                                                  DOF has implemented a number of important controls designed to ensure that
The Corporation provides relocation services      payments to Cartus for relocation services are allowable, allocable, and reasonable
and reimbursement of expenses for FDIC            and in compliance with contract requirements. Of particular note, DOF has
employees who change their official duty          designated an Oversight Manager and Technical Monitor to oversee the Cartus
station for the benefit of the FDIC. Certain      contract and has segregated key duties and responsibilities for reviewing,
retirees also receive some relocation             processing, and paying contractor invoices. Further, DOF has performed post-
benefits. The FDIC has contracted with the        payment audits of selected invoices submitted by Cartus. In addition, DCAA
Cartus Corporation (Cartus) to provide            found that costs billed to the FDIC for relocation services on selected Cartus
eligible employees and retirees with
                                                  invoices were allowable, allocable, and reasonable.
relocation services.

The objective of the audit was to determine       We also found that improvements are needed in some areas to ensure sound
whether the FDIC has sound controls in            controls over the FDIC’s payments to Cartus for relocation services. Specifically,
place to ensure that costs billed to the FDIC     DOF had not fully documented its control activities related to payments of the
by Cartus for relocation services are             monthly Cartus invoices for relocation services, including the control activities for
allowable, allocable, and reasonable and in       performing semi-annual post-payment audits and the roles and responsibilities in
compliance with contract requirements. As         carrying out control activities. Also not fully documented were the control
part of the audit, we engaged the Defense         activities related to the weekly Cartus invoices for the Home Sale Program. These
Contract Audit Agency (DCAA) to examine
                                                  control activities are a key means of assuring the validity of payment transactions
selected invoices submitted by Cartus.
                                                  and the accuracy and timeliness of payment recording. Documentation of the
                                                  control activities may help reduce the risk of errors and unauthorized transactions.
Background                                        In addition, DOF has not fully documented procedures for the monitoring and
The FDIC’s Division of Finance (DOF) has          periodic assessment of controls over contractor payments for the relocation
overall responsibility for managing the           program and formalized the procedures through management review and approval
FDIC’s relocation program, including              to ensure that they are working as intended. Monitoring and assessing controls are
oversight of the Cartus contract. During          useful in ensuring the effectiveness and efficiency of operations, the reliability of
2006 and 2007, Cartus billed the FDIC about       financial reporting, and compliance with policies and procedures.
$11 million for relocation expenses such as
household goods moving and storage costs,         Improvements in these areas will also help ensure consistency with internal control
lump-sum payments (such as airfare and            standards as required by FDIC Circular 4010.3.
lodging), miscellaneous expense allowances,
and real estate expenses. Cartus also billed
the FDIC about $7.8 million during 2007 for
advances of home equity and mortgage              Recommendations and Management Response
payoffs related to the FDIC’s Home Sale
Program. That program is intended to assist       We recommended that the Director, DOF:
relocating employees in selling a qualified
residence at the former official station so
that the employee can move more quickly to            •    Fully document the control activities associated with contractor payments
purchase a home at the new official station.               of the monthly invoices for relocation expenses and the weekly invoices
                                                           for the Home Sale Program, including documenting the control activities
The FDIC’s General Travel Regulation,                      for performing semi-annual post-payment audits and the roles and
Volume II, specifies the benefits,                         responsibilities in carrying out control activities.
requirements, and restrictions for employee
participation in the FDIC’s relocation                 •    Formalize the monitoring and periodic assessment of the controls over
program. Additionally, FDIC Circular                        contractor payments for relocation services as part of DOF’s internal
4010.3, FDIC Enterprise Risk Management                     control program.
Program, requires appropriate
documentation of controls and procedures
                                                  DOF concurred with our recommendations and has planned to take responsive
and monitoring of controls for financial
transactions such as contractor payments.         actions.


To view the full report, go to www.fdicig.gov/2008reports.asp
Contents                                                              Page


BACKGROUND                                                              1
  Relocation Services Contract                                          2
 Controls Related to Contractor Payments                                3

RESULTS OF AUDIT                                                        4

CONTROLS OVER CONTRACTOR PAYMENTS FOR RELOCATION                        5
SERVICES

   Controls Implemented for Contractor Payments to Cartus               5
     Approval of Relocation Requests and Benefits                       5
     Prepayment Reviews of Cartus Invoices                              6
     Post-Payment Audits                                                6
     Segregation of Duties                                              7
   Results of DCAA Engagement                                           8
   Documentation and Monitoring of Controls for Contractor Payments     8
     Documentation of Control Activities                                8
     Monitoring and Assessing Controls                                  9
   Recommendations Related to Controls Over Relocation Services        10

CORPORATION COMMENTS AND OIG EVALUATION                                10

APPENDICES
  1. OBJECTIVE, SCOPE, AND METHODOLOGY                                 11
  2. ELIGIBILITY OF RELOCATION BENEFITS BASED ON                       14
     EMPLOYMENT STATUS
  3. CORPORATION COMMENTS                                              15
  4. MANAGEMENT RESPONSE TO RECOMMENDATIONS                            17
  5. ACRONYMS USED IN THE REPORT                                       18

TABLES
  1. Summary of Relocation Program Expenses                             2
   2. Summary of TSU’s Control Activities                               9
    Federal Deposit Insurance Corporation                                                               Office of Audits
    3501 Fairfax Drive, Arlington, VA 22226                                                Office of Inspector General


    DATE:                                     September 17, 2008

    MEMORANDUM TO:                            Bret D. Edwards, Director
                                              Division of Finance


                                              /Signed/
    FROM:                                     Russell A. Rau
                                              Assistant Inspector General for Audits

    SUBJECT:                                  Controls Over Contractor Payments for Relocation
                                              Services (Report No. AUD-08-016)


    This report presents the results of our audit of controls over contractor payments for
    relocation services. This audit is the second we plan to perform this year on FDIC
    employee benefits, which is an area included in the Office of Inspector General 2008
    Business Plan. The objective of the audit was to determine whether the FDIC has sound
    controls in place to ensure that costs billed to the FDIC by the Cartus Corporation
    (Cartus) for relocation services are allowable, allocable, and reasonable and in
    compliance with contract requirements. 1 In addition, we engaged the Defense Contract
    Audit Agency (DCAA) to examine selected invoices submitted by the contractor. We
    conducted this performance audit in accordance with generally accepted government
    auditing standards. Appendix 1 of this report discusses our audit objective, scope, and
    methodology in detail.


BACKGROUND

    The FDIC’s Division of Finance (DOF) is responsible for managing the FDIC’s relocation
    program. The FDIC provides for relocation services and reimbursement of essential
    expenses for employees who change their official duty station for the benefit of the
    FDIC. Relocation services include activities and expenses associated with moving
    employees and their immediate families; relocation counseling, moving household goods
    and automobiles; and depending on an employee’s personal circumstances, selling a
    current residence and buying a new residence at the new duty station. Certain FDIC
    retirees are also eligible for relocation services.




    1
     The definitions of allowable, allocable, and reasonable and their applicability to this audit can be found in
    Appendix 1.
      The FDIC’s relocation policy is described in Volume II of the FDIC’s General Travel
      Regulations (GTR) (FDIC Circular 2510.5, dated February 23, 2005). The FDIC has sole
      authority to develop, issue, and enforce the relocation travel regulations. 2 However, the
      National Treasury Employees Union (NTEU) and the FDIC have established negotiation
      procedures for the purpose of bargaining to develop and issue relocation regulations.
      Appendix 2 of this report provides a summary of the benefits available for employees
      under the FDIC’s relocation program.


Relocation Services Contract

      The FDIC contracted with Cartus on June 2, 2003 to provide relocation services for
      eligible employees in accordance with the GTR. The contract had a 1-year performance
      period (June 2, 2003 through June 1, 2004) with additional 1-year exercised option
      periods and an interim modification exercised to extend through December 31, 2007.
      Cartus was paid management fees, which depend on the number and type of relocation
      involved, and reimbursed for direct expenses incurred in providing certain relocation
      services as specified in the contract. The contract established an annual maximum
      amount of $300,000 for the management fees.

      On January 1, 2008, the FDIC entered into a new contract with Cartus for a maximum
      period of 10 years with a 4-year base period and three 2-year award options. According
      to the Semi-Annual Contract Assessment Report for the period October 1, 2007 through
      March 31, 2008, the total 10-year price for the new Cartus contract was estimated not to
      exceed $180 million. The contract ceiling is about $85 million, which includes
      management fees of $4 million and reimbursable expenses of $81 million, with the
      remaining $95 million ($180 million less $85 million) in recoverable home equity
      advances and mortgage payoffs.

      From the inception of the contractual relationship in 2003 through March 31, 2008, the
      FDIC paid Cartus $61.4 million for relocation services. 3 This amount includes over
      $11.2 million paid to Cartus for 2006 and 2007 monthly invoices as shown in Table 1
      below. 4

      Table 1: Summary of Relocation Program Expenses
                                   2006                  2007                 Total
          Total Monthly
             Invoice
            Amounts*           $5,239,889             $5,960,545          $11,200,434

      Source: DCAA Audit Report No. 02901-2008A17900011, dated June 9, 2008.
      *
        Includes expenses related to household goods moving and storage costs, a lump-sum payment (such as for airfare and
      lodging), a miscellaneous expense allowance, real estate sales and purchases expenses, loss/gains from home sales, and
      management fees.


      2
        The statutes related to federal relocation management have excluded government-controlled corporations
      such as the FDIC. As a result, the FDIC is not bound by federal relocation regulations and has developed
      its own relocation regulations.
      3
        Includes payments made in 2008 for costs incurred in 2007.
      4
        Our audit scope includes contractor payments for 2006 and 2007 relocation expenses and 2007 home
      equity and mortgage payoffs.
                                                            2
      The FDIC also paid Cartus about $7.8 million during 2007 for advances of home equity
      and mortgage payoffs related to the FDIC’s Home Sale Program. The program is
      intended to assist relocating employees in selling a qualified residence at the former
      official station so that the employee can move more quickly to purchase a home at the
      new official station. Advances and mortgage payoffs are receivables of the FDIC that are
      fully reimbursed by Cartus from the proceeds shortly after each residence is sold.
      Thereafter, any loss that is incurred on the sale of the residence is recorded as an expense
      and is billed by Cartus to the FDIC.


Controls Related to Contractor Payments

      The Government Accountability Office (GAO) issued Standards for Internal Control in
      the Federal Government, which applies to all operations—programmatic, financial, and
      compliance. The standards state that management is responsible for developing internal
      control activities to help ensure that management’s directives are achieved. Control
      activities are the policies, procedures, and mechanisms that enforce management’s
      directives. Control activities include, for example, approvals, authorizations,
      verifications, reconciliations, and the creation and maintenance of related records that
      provide evidence that these activities have been executed and documented. FDIC
      Circular 4010.3, FDIC Enterprise Risk Management Program, adopted the internal
      control standards prescribed by GAO and intended to ensure the following control
      objectives are achieved: effectiveness and efficiency of operations, reliability of financial
      reporting, and compliance with applicable laws and regulations. Circular 4010.3 requires
      management to develop and implement controls to ensure that management’s directives
      are carried out and to provide reasonable assurance that controls are sufficient to
      minimize exposure to waste, fraud, and mismanagement and that the control activities are
      documented.

      The circular requires management to perform monitoring activities to assess the quality of
      performance over time and the effectiveness of controls. Monitoring activities include
      routine management and supervisory actions; transaction comparisons and reconciliations;
      other actions taken in the course of normal operations; as well as separate and discrete
      control evaluations, including internal self-assessments and external reviews.

      Circular 4010.3 describes key control activities related to contractor payments, including:

          •   Segregation of Duties. Key duties and responsibilities shall be divided among
              different individuals such that no one individual should control all key aspects of a
              transaction to reduce the risk of error or fraud.

          •   Proper Execution of Transactions and Events. Transactions and other significant
              events shall be authorized and executed only by persons acting within the scope of
              their authority.

          •   Appropriate Documentation of Transactions and Internal Controls. Internal
              controls, all transactions, and other significant events shall be clearly

                                                  3
            documented. This helps to ensure that payment transactions are complete,
            accurate, and recorded in a timely manner. Documentation shall be readily
            available for examination.

    The FDIC’s Acquisition Policy Manual (APM), which establishes policies and
    procedures for contracted goods and services, states that the assigned contract Oversight
    Manager (OM) is, among other things, responsible for monitoring the contractor’s
    progress and performance to assure compliance with the contract terms. The FDIC pays
    contractor costs that are allowable by the terms of the contract, allocable to the contract
    based on the costs being invoiced to perform the relocation services, and reasonable in
    nature and amount. The OM reviews and approves invoices for payment and ensures the
    work is within the scope of the contract. The OM must also ensure that the invoices do
    not exceed the contract value and that they are applied to the correct fund accounting
    codes. Additionally, the APM provides that a Technical Monitor (TM) can be assigned
    to assist the OM in performing the contract oversight duties.


RESULTS OF AUDIT

    DOF has implemented a number of important controls designed to ensure that payments
    to Cartus for relocation services are allowable, allocable, and reasonable and in
    compliance with contract requirements. Of particular note, DOF has designated an OM
    and TM to oversee the Cartus contract and segregated key duties and responsibilities for
    reviewing, processing, and paying contractor invoices. Additionally, DOF has performed
    post-payment audits of selected Cartus invoices. In addition, DCAA found that costs
    billed to the FDIC for relocation services on selected Cartus invoices were allowable,
    allocable, and reasonable.

    Such controls are positive. However, improvements are needed in some areas to ensure
    sound controls over the FDIC’s payments to Cartus for relocation services. Specifically,
    DOF has not fully documented its control activities related to payments of the Cartus
    monthly invoices for relocation services, including the control activities for performing
    semi-annual post-payment audits and the roles and responsibilities in carrying out control
    activities. Also not fully documented were the control activities during DOF’s post-
    payment on-site audits to ensure that the Cartus weekly invoices for the Home Sale
    Program equity and mortgage payoffs and proceeds from home sales are supported with
    appropriate source documents in accordance with contractual requirements. These
    control activities are a key means of assuring the validity of payment transactions and the
    accuracy and timeliness of payment recording. Documentation of the control activities
    may help reduce the risk of errors and unauthorized transactions.

    In addition, DOF has not fully documented the monitoring and periodic assessment of
    controls over contractor payments for the relocation program and formalized them
    through management review and approval to ensure that they are working as intended.
    Monitoring and assessing controls are useful in ensuring the effectiveness and efficiency
    of operations, reliability of financial reporting, and compliance with policies and
    procedures.
                                               4
      Improvements in these areas will help ensure consistency with internal control standards
      as required by FDIC Circular 4010.3.


CONTROLS OVER CONTRACTOR PAYMENTS FOR RELOCATION SERVICES

      DOF’s Travel Services Unit (TSU) manages the FDIC’s relocation program and has
      oversight responsibility for the Cartus contract. The TSU has assigned both a dedicated
      OM and TM to oversee the relocation services contract. Further, TSU has established
      and implemented control activities to ensure that contractor payments to Cartus are
      allowable, allocable, and reasonable and in compliance with contract requirements.
      However, as discussed below, DOF has not fully documented the control activities
      related to payments to Cartus. Also, DOF has not fully documented the monitoring and
      periodic assessment of controls over contractor payments for the relocation program and
      formalized them to ensure that they are working as intended by management.


Controls Implemented for Contractor Payments to Cartus

      DOF has controls to ensure that relocation transactions are properly authorized, executed,
      and monitored in accordance with the APM. For contractor payments made in 2006 and
      2007, TSU verified approvals for relocation services, performed prepayment reviews, and
      conducted post-payment audits. In addition, as prescribed by FDIC policy, DOF has
      separated the responsibilities for contractor invoice review, approval, and processing
      among TSU staff and Disbursement Operations Unit (DOU) staff.


      Approval of Relocation Requests and Benefits. The GTR requires that employees
      relocating to a new office (transferees) submit to TSU an Official Notification of
      Relocation 5 (ONOR) that has been approved by the appropriate delegated authority. 6
      However, eligible retirees applying for relocation benefits are required to submit either a
      letter of application request or an email request to TSU for relocation services. TSU
      reviews the retiree’s request and verifies the employee’s eligibility for the retirement
      relocation benefit with the Human Resources Branch in the FDIC’s Division of
      Administration. A TSU technician enters data from the approved requests for relocation
      benefits into the Cartus accounting system to initiate relocation services. A TSU
      technician then assigns the benefit package (Tier 1-4 as described in Appendix 2) to each
      relocating employee based on information included on the approved requests (e.g., type
      of appointment, new hire, or transferee from another federal agency) and enters the
      benefit package into the Cartus system. The OM reviews the information in the system
      and ensures the assigned benefits are accurate.



      5
        ONORs include various employee information such as type of appointment, whether the employee is a
      new hire, and dependent information.
      6
        The delegation of authority is the method by which authority is granted to individuals holding a specific
      position for making decisions or obligations on behalf of the Corporation.
                                                         5
We reviewed the requests for relocation services for 26 relocating employees of which
21employees were transferees and 5 were retirees. 7 We determined that the ONORs for
the 21 transferees had been approved by the appropriate delegated authority and that the 5
retiree requests for relocation services had been submitted and approved in accordance
with the GTR.


Prepayment Reviews of Cartus Invoices. Prior to 2007, the TSU reviewed 100 percent
of the relocation expenses and supporting documentation for the Cartus invoices before
approving payment to ensure that such payments were allowable and reasonable in
accordance with the GTR and the contract with Cartus. The FDIC modified the Cartus
contract in December 2005 to support TSU conducting post-payment audits at the
contractor site rather than a 100-percent review of the relocation expenses at TSU. In
2007, TSU began performing the on-site post-payment audits every 6 months. As a
result, Cartus was no longer required to send the FDIC all of the supporting
documentation. The OM and TM continued to conduct prepayment reviews, but they are
limited to verifying that the fixed expenses (e.g., management fees, miscellaneous
expense allowances, and home inspection fees) on the monthly invoices did not exceed
the maximum amounts allowed by the GTR. TSU is continuing the practice of limited
prepayment reviews for the current Cartus contract that began in January 2008 with
emphasis on post-payment audits.

With respect to the weekly Cartus invoices for the Home Sale Program, TSU indicated
that prepayment reviews have not been performed because Cartus maintains the
supporting documentation (e.g., equity statements, mortgage payoffs, and HUD 8
statements) for these transactions. According to the OM, the equity and mortgage
payoffs related to the program are reconciled to the corresponding sales proceeds for the
purchased homes and reviewed by TSU during post-payment audits (discussed below).


Post-Payment Audits. Every 6 months, the TSU conducts post-payment on-site audits
of relocation expense files maintained at Cartus. During these audits, TSU reviews
expenses attributable to relocations, including 100 percent of the real estate charges on
each billing. According to TSU, the audit steps performed include:

    •   reconciling real estate expenses documented on the HUD-1 statement to the
        detailed spreadsheets attached to the invoices and to any other supporting
        documentation/invoices;

    •   verifying that the real estate commission is correct; and

    •   recalculating loan origination points.


7
  The same 26 relocating employees were included in DCAA’s examination of selected invoices, discussed
later in this report.
8
  The settlement agent uses the Department of Housing and Urban Development’s form HUD-1, Settlement
Statement, to itemize all charges imposed upon a borrower and seller for a real estate transaction.
                                                  6
TSU also performs random reviews of other benefits such as lump sum payments and
household goods moving and storage expenses. TSU’s audit steps for these types of
expenses typically include verifying that the lodging and per diem 9 expenses for
employees are correct and reconciling relocation expense invoices to supporting
documents maintained by Cartus. TSU summarizes and provides the results of the post-
payment audits to DOF’s Deputy Director/Controller.

During the October 2007 post-payment on-site audit, TSU identified exceptions totaling
approximately $20,000, which represented about 1 percent of about $2 million billed by
Cartus to the FDIC during July through September 2007. The majority of these
exceptions was due to an overstatement of Cartus management fees for real estate
expenses for retirees. Specifically, Cartus overcharged the management fees for a
number of retirees that were eligible for relocation benefits. Cartus credited subsequent
invoices for the difference to correct the errors. TSU indicated that since the October
2007 review, Cartus has made a change to its accounting system to correct the billing
problem.


Segregation of Duties. DOF ensured the segregation of duties among staff responsible
for reviewing, processing, and paying Cartus invoices. TSU prepared hardcopies of the
Payment Authorization Vouchers (PAV), attached the PAVs to the weekly and monthly
invoices, and sent them to the DOU. DOU then verified the invoice payment amount and
the delegated signature authority and processed the payment in the New Financial
Environment (NFE), the FDIC’s financial management system.

The FDIC began using its electronic purchase order system to pay the monthly Cartus
invoices for those relocation services requests initiated in 2008. The system separates the
duties related to reviewing, approving, and processing contractor payments for the
monthly invoices. For example, contractors such as Cartus e-mail the electronic invoices
to DOU, which reviews them for accuracy and compliance before the invoices are
scanned and entered into the Accounts Payable module of the NFE. Once the invoices
have been entered, the OM and Contract Specialist can access them on-line. After the
OM reviews and approves an invoice electronically, the Accounts Payable Reviewer
checks the purchase order for funds availability, verifies that the correct purchase order
number is on the invoice, and ensures that the invoice amount does not exceed contract
limits. DOU returns any invoice that is not in compliance with these procedures to the
sender for correction. DOU then processes the payment in the NFE.

TSU continues to prepare the hardcopy PAVs to pay the weekly Cartus invoices. TSU
tracks home equity and mortgage payoffs and home sales proceeds. The OM indicated
that TSU reviews equity and mortgage payoffs along with HUD statements during the
post-payment on-site audits.




9
 The maximum daily reimbursement rates for meals and incidental expenses for an employee while on
official travel.
                                              7
Results of DCAA Engagement

      DCAA found that costs Cartus billed to the FDIC for relocation services were allowable,
      allocable, and reasonable. DCAA did not find any questioned, unsupported, or
      unresolved relocation expenses on the sampled monthly invoices for real estate expenses
      or the sampled weekly invoices for equity and mortgage payoffs. DCAA also provided
      added assurance that the contractor payment controls for relocation services have been
      working as intended. In addition, DCAA noted that Cartus has controls in place for the
      (1) prevention of duplicate payments; (2) third-party vendors (e.g., moving companies);
      and (3) timeliness and accuracy of equity/mortgage payoff amounts reflected in weekly
      Cartus invoices for relocation services.


Documentation and Monitoring of Controls for Contractor Payments

      The control activities related to payments to Cartus for relocation services were not fully
      documented as part of managing the FDIC’s relocation program, including oversight of
      the Cartus contract. In addition, DOF has not fully documented the monitoring and
      periodic assessment of controls over contractor payments for the relocation program and
      formalized them through management review and approval to ensure that they are
      working as intended. FDIC Circular 4010.3 requires appropriate documentation of
      internal controls and monitoring and assessment of internal controls. Documentation,
      monitoring, and assessment of controls for the relocation program are useful in
      achieving the effectiveness and efficiency of operations, reliability of financial reporting,
      and compliance with policies and procedures.


      Documentation of Control Activities. DOF needs to fully document the control
      activities related to reviewing payments of the Cartus monthly invoices for relocation
      services as required by the circular. DOF also needs to document the control activities
      related to the Cartus weekly invoices. Table 2 on the next page describes these control
      activities in more detail.




                                                  8
Table 2: Summary of TSU’s Control Activities
     Controls Related to FDIC
  Payments for Relocation Services                    Control Activities                           References
                                            OM and TM oversight of the relocation            Letters of OM and TM
      Assignment of OM and TM
                                            program                                               Confirmation
                                            Approval of Relocation Authorization                   FDIC GTR
                                            by the Appropriate Official
 Relocation Authorizations
                                                                                             Letters of OM and TM
                                            OM Verification of the ONOR                           Confirmation
                                            Prepayment review of the monthly
                                            invoices and verification that fixed
                                            expenses, such as miscellaneous expense
                                            allowances and home inspection fees, do
   Relocation Expense Verification*         not exceed the maximum amounts
                                            allowed by the FDIC

                                            Post-payment semi-annual on-site audits
                                            of relocation expenses                               Cartus Contract
                                            Tracking of accounts receivable related
   Home Sale Program Verification
                                            to equity and mortgage payoffs                            None
 Source: OIG’s review of the FDIC’s relocation services contract, procedures, and regulations.
*
  Includes real estate expenses, household goods moving and storage costs, a lump-sum payment (such as for airfare and
  lodging), and a miscellaneous expense allowance.



In February 2007, DOF managers signed a Relocation Services Process Memorandum
Certification, documenting the flow of information related to the relocation process as
part of the FDIC’s financial statement audit process. The memorandum provides a
description of the receipt and payment of monthly invoices and Home Sale Program
transactions, including TSU’s tracking of equity and mortgage payoffs along with HUD
statements. Nevertheless, the memorandum does not address control activities for
performing semi-annual post-payment audits and the roles and responsibilities in carrying
out control activities. The memorandum also does not address control activities related to
the Cartus weekly invoices.

During our audit, TSU agreed with our findings and was drafting control activities to
address our concerns.


Monitoring and Assessing Controls. DOF’s Administration and Internal Control
Section (AICS) worked with TSU to document a Control Self-Assessment Workshop
Matrix (Control Matrix), dated March 2004, that identified the various control objectives,
risks, and control techniques that have been implemented to ensure that costs incurred for
relocation services are billed in accordance with contractual requirements. However, this
Control Matrix has not been updated to reflect the changes in the controls over the last 4
years related to relocation services. Fully documenting and formalizing, including
through management review and approval, the monitoring and periodic assessment of
controls over contractor payments for the relocation program would help to ensure
(1) that the controls are operating as management intended and (2) consistency with
internal control standards as required by FDIC Circular 4010.3.

                                                        9
Recommendations Related to Controls Over Relocation Services

      We recommend that the Director, DOF:

      (1) Fully document the control activities associated with contractor payments of the
      monthly invoices for relocation expenses and the weekly invoices for the Home Sale
      Program, including documenting the control activities for performing semi-annual post-
      payment audits and the roles and responsibilities in carrying out control activities.

      (2) Formalize the monitoring and periodic assessment of the controls over contractor
      payments for the relocation program as part of DOF’s internal control program.


CORPORATION COMMENTS AND OIG EVALUATION

      On September 12, DOF provided a written response to the draft of this report. DOF’s
      response is provided in its entirety as Appendix 3 of this report. In its response, DOF
      concurred with both recommendations and outlined its planned corrective actions for each
      recommendation.

      Regarding the documentation of controls and roles and responsibilities in carrying out control
      activities for the relocation program, DOF indicated that the Relocation Services Process
      Memorandum Certification covers, in considerable detail, the process for contractor
      payments of the monthly invoices for relocation expenses and weekly invoices for the Home
      Sale Program. By December 31, 2008, DOF will enhance the procedures for the weekly and
      monthly contractor payment process to include control activities in each area as well as the
      roles and responsibilities for carrying out these control activities. Additionally, DOF has
      documented the semi-annual post-payment audit process.

      With respect to formalizing the monitoring and periodic assessment of the controls over
      contractor payments for the relocation program, by December 31, 2008, DOF will revise and
      update the Control Matrix for the control objectives, risks, and control techniques, including
      monitoring activities, affecting the contractor payment processes for the relocation program.
      This updated matrix will be the foundation for DOF’s review of controls and risk assessment
      of the relocation program as part of the annual assurance statement process for TSU. The
      annual assurance statement process is a key element of DOF’s internal control program to
      ensure controls at the organizational unit level are operating as intended and critical control
      risks are identified as priorities are considered and addressed.

      A summary of management’s response to each of the report’s recommendations is in
      Appendix 4. DOF also provided clarifications to the description of the control environment
      for the relocation program, which we included in the report as deemed necessary. We
      consider DOF’s completed and planned actions to be responsive to the recommendations.
      The recommendations are resolved but will remain open until we have determined that
      agreed-to corrective actions have been completed and are responsive.



                                                 10
                                                                                    APPENDIX 1
                         OBJECTIVE, SCOPE, AND METHODOLOGY


Objective and Scope

      The audit objective was to determine whether the FDIC has sound controls in place to
      ensure that costs billed to the FDIC by Cartus for relocation services are allowable,
      allocable, and reasonable and in compliance with contract requirements.

      The terms “allowable, allocable, and reasonable” are based on the Federal Acquisition
      Regulation (FAR). Under that regulation, “allowable” means generally that an expense
      was allocable, reasonable, and complied with the contract’s requirements. “Allocable”
      means, in general, that a cost was incurred in connection with the contract, or that the
      cost benefits the contract and other work; while “reasonable” means that the cost does not
      exceed that which would be incurred by a prudent person in the conduct of competitive
      business. Compliance with contract requirements is self-explanatory.

      The FAR is not legally binding on the FDIC, and in conducting the audit, including the
      DCAA’s examination, the meaning of the terms allowable, allocable, and reasonable was
      modified, when necessary, in light of the FDIC’s APM, relocation policy, and the
      circumstances of the Cartus contract. “Allocable” meant that the cost was incurred in
      connection with the contract; while “allowable” costs are those that meet the limitations
      set forth in the FDIC’s GTR; and “reasonable,” as used in this audit, applies to FDIC
      determinations of whether certain expenses exceeding the GTR limitations would be
      allowed.

      We conducted this performance audit from February through June 2008 in accordance
      with generally accepted government auditing standards (GAGAS). Those standards
      require that we plan and perform the audit to obtain sufficient, appropriate evidence to
      provide a reasonable basis for our findings and conclusions based on our audit objectives.
      We believe that the evidence obtained provides a reasonable basis for our findings and
      conclusions based on our audit objective.

      The scope of the audit focused on the payments made to Cartus for the period January 1,
      2006 through November 2007. We engaged DCAA to perform appropriate tests and
      procedures to determine whether such payments were adequately supported consistent
      with the terms and conditions of the contract. DCAA’s report states that it performed its
      examination in accordance with GAGAS.


Methodology

      To accomplish our objective, we:

      •    Interviewed DOF’s TSU personnel to obtain an understanding of their roles,
           responsibilities, processes, and practices for ensuring that costs billed by Cartus for
           relocation services were allowable, allocable, and reasonable and in compliance
           with contract requirements.


                                                 11
                                                                                                  APPENDIX 1


      •     Analyzed relevant provisions and modifications of the Cartus contracts to gain an
            understanding of the contractual terms and conditions related to scope, costs, and
            services provided.

      •     Engaged DCAA to examine selected invoices submitted by Cartus to determine
            whether costs billed to the FDIC were allowable, allocable, and reasonable and
            billed in accordance with contract requirements. DCAA reviewed selected monthly
            and weekly invoices.

      •     Based on DCAA’s work, we reviewed a sample of ONORs for 21 transferees and
            requests for relocation services from 5 retirees and determined that, in each case,
            the requests for services had been approved within the appropriate delegations of
            authority. 10

      •     Interviewed DOF’s Internal Control Liaison to determine if the control activities for
            the relocation program were defined and tested by the FDIC to ensure that controls
            were in place and operating as management intended.

      •     Reviewed PAVs for the same five invoices (related to services for retirees) that
            DCAA had also tested to ensure that the PAVs had been signed by the appropriate
            delegated authority. We also verified that the invoice amounts and the amounts
            paid were the same.

      •     Considered relevant provisions of the following FDIC policies pertaining to
            relocation services:

                   o Volume II of the FDIC’s General Travel Regulations (FDIC Circular
                     2510.5, dated February 23, 2005).

                   o 2006-2009 Compensation Agreement between the FDIC and NTEU

                   o The FDIC’s APM, including the Letter of Oversight Manager
                     Confirmation and Letter of Technical Monitor Confirmation.

      We performed our audit work at the FDIC’s Headquarters offices in Arlington, Virginia,
      and Washington, D.C. DCAA conducted its fieldwork at the Cartus offices in Danbury,
      Connecticut.


Internal Control

      We gained an understanding of the relevant control activities by examining applicable
      policies, procedures, and guidance related to relocation services. In addition, we gained
      an understanding of the roles and responsibilities of DOF’s OM and TM responsible for
      10
         The results of a non-statistical sample cannot be projected to the intended population by standard
      statistical methods.


                                                         12
                                                                                             APPENDIX 1


      oversight of the relocation program. Additionally, we evaluated DOF’s Control Self-
      Assessment Workshop Matrix, which identifies control objectives, risks, and control
      techniques related to the relocation function.


Reliance on Computer-processed Information

      Our audit objective did not require that we separately assess the reliability of computer-
      processed data to support our significant findings, conclusions, and recommendations.
      Additionally, in performing this audit, we did not consider it necessary to evaluate the
      effectiveness of information systems controls in order to obtain sufficient, appropriate
      evidence.


Performance Measurement

      We reviewed the FDIC’s 2008 Annual Performance Plan and found that it did not
      contain specific goals, objectives, or performance measures that were relevant to our
      audit.


Compliance with Laws and Regulations

      The FDIC’s GTR and the APM are the relevant regulations for this audit of the controls
      over contractor payments for relocation services. 11 We found no instances where the
      FDIC was not in compliance with applicable laws and regulations.

      We assessed the risk of fraud and abuse related to the audit objective in the course of
      evaluating audit evidence.




      11
        The Prompt Payment Act is also applicable to contractor payments. However, the audit scope did not
      include testing of compliance with the Prompt Payment Act. Rather, the audit focused on controls for
      ensuring that the costs billed were allowable, allocable, and reasonable.


                                                      13
                                                                                           APPENDIX 2

             ELIGIBILITY OF RELOCATION BENEFITS BASED ON
                          EMPLOYMENT STATUS


             Benefit                   Tier 1a      Tier 2b       Tier 3c        Tier 4d
Official Time for House Hunting            9            9            9               9

Lump Sum Reimbursement                     9            9            9               9

Moving a Privately Owned Vehicle           9            9            9               9

Moving a Mobile Home                       9

Household Goods Shipment                   9            9            9               9

Real Estate Sales Expenses                 9

Real Estate Purchase Expenses             9

Home Sale Program                          9

Mortgage Interest Differential             9
Allowance (MIDA)
Settling an Unexpired Lease                             9

Miscellaneous Expense Allowance            9            9            9
(MEA)
Tax Allowance                              9            9            9               9


Source: The FDIC’s GTR.
Note: A checkmark indicates that the employee (as described below) is eligible for the benefits in the
respective categories (tiers).

The primary determinant of employee eligibility for participation in the FDIC’s relocation
program is the status of employment immediately prior to the personnel action authorizing the
relocation. The GTR categorizes employee eligibility for relocation benefits into four tiers as
described below.
    a
     Tier 1 covers FDIC employees or newly hired employees from other federal agencies who
    are homeowners and are serving on current appointments of a permanent nature, without a
    break in service, in either the competitive or excepted services.
    b
     Tier 2 covers FDIC employees or newly hired employees from other federal agencies who
    are renters and are serving on current appointments of a permanent nature, without a break
    in service, in either the competitive or excepted services.
    c
     Tier 3 covers FDIC employees who are serving on current appointments of a temporary
    nature in either the competitive or excepted services.
    d
     Tier 4 covers all other newly hired employees accepting new permanent or temporary
    appointments in either competitive or excepted service positions with the FDIC and retirees.
    (Retirees receive some Tier 1 benefits such as real estate expenses.)




                                                  14
                       APPENDIX 3

CORPORATION COMMENTS
     APPENDIX 3




16
                                                                                         APPENDIX 4

               MANAGEMENT RESPONSE TO RECOMMENDATIONS

This table presents the management response on the recommendations in our report and the
status of the recommendations as of the date of report issuance.

    Rec. No.    Corrective Action: Taken          Expected       Monetary      Resolved:a     Open or
                       or Planned                Completion      Benefits      Yes or No      Closedb
                                                    Date
       1        DOF will enhance the             12/31/2008          NA            Yes          Open
                procedures for the weekly
                and monthly contractor
                invoice payment processes
                for the relocation program to
                include control activities in
                each area as well as the roles
                and responsibilities for
                carrying out these control
                activities. Additionally,
                DOF has documented the
                semi-annual post-payment
                audit process.

       2        DOF's Internal Control           12/31/2008          NA            Yes          Open
                Section will assist TSU staff
                in revising the Control
                Matrix (last updated in
                March 2004) for the control
                objectives, risks, and control
                techniques (including
                monitoring activities)
                affecting the contractor
                payment processes and all
                other relocation services.
                This updated Control Matrix
                will be the foundation for the
                TSU manager's review of
                controls and risk
                assessments in this area as
                part of the annual assurance
                statement process for travel
                services.
a
  Resolved – (1) Management concurs with the recommendation, and the planned, ongoing, and completed
                corrective action is consistent with the recommendation.
             (2) Management does not concur with the recommendation, but alternative action meets the
                 intent of the recommendation.
             (3) Management agrees to the OIG monetary benefits, or a different amount, or no ($0)
                 amount. Monetary benefits are considered resolved as long as management provides an
                 amount.
b
  Once the OIG determines that the agreed-upon corrective actions have been completed and are responsive
to the recommendations, the recommendations can be closed.




                                                 17
                                                           APPENDIX 5
               ACRONYMS USED IN THE REPORT


AICS    Administration and Internal Control Section
APM     Acquisition Policy Manual
DCAA    Defense Contract Audit Agency
DOF     Division of Finance
DOU     Disbursement Operations Unit
FAR     Federal Acquisition Regulation
GAGAS   Generally Accepted Government Auditing Standards
GAO     Government Accountability Office
GTR     General Travel Regulations
NFE     New Financial Environment
NTEU    National Treasury Employees Union
OM      Oversight Manager
ONOR    Official Notification of Relocation
PAV     Payment Authorization Voucher
TM      Technical Monitor
TSU     Travel Services Unit




                                18
